No. 20-1725
IN THE

Supreme Court of the United States
_________
DAVID SEIDEMANN AND BRUCE MARTIN, INDIVIDUALLY AND ON BEHALF OF ALL OTHERS
SIMILARLY SITUATED,
Petitioners,
v.
PROFESSIONAL STAFF CONGRESS LOCAL 2334, ET AL.,
Respondents.
_________
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Second Circuit
_________
CERTIFICATE OF COMPLIANCE
_________
As required by Supreme Court Rule 33.1(h), I certify that the Amicus Curiae
Brief of the National Right to Work Legal Defense Foundation in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 4,640 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 13, 2021.
/s/ William L. Messenger
William L. Messenger
c/o National Right to Work Legal Defense
Foundation, Inc.
8001 Braddock Road Suite 600
Springfield, VA 22160
(703) 321-8510
wlm@nrtw.org
An Attorney for the Amicus Curiae National
Right to Work Legal Defense Foundation.

